The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Irving A. Williamson
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

VIA ELECTRONIC TRANSMISSION

June 23, 2010                                                             OIG-HH-017

Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit on the
Patching of ITCNet Workstations, OIG-AR-09-10. In finalizing the report, we analyzed
management’s comments on our draft report and have included those comments in their
entirety in Appendix A.

This report contains six recommendations for corrective action. In the next 30 days, please
provide me with your management decisions describing the specific actions that you will
take to implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
 
                                 U.S. International Trade Commission
                                              Audit Report


                                                  Table of Contents
Results of Audit ............................................................................................. 1 

Problem Areas & Recommendations .......................................................... 1 
   Problem Area 1: The Commission Does Not Measure the Patch Status of Workstations
   ........................................................................................................................................ 1 
      Recommendation 1: We recommend that the CIO deploy a tool to measure the
      patch status of workstations on ITCNet. ..................................................................... 2 
      Recommendation 2: We recommend that the CIO report monthly on patch status
      of workstations to all senior management in the Commission. .................................. 2 

   Problem Area 2: The Responsibility for Patching Workstations is Unclear ................. 2 
     Recommendation 3: We recommend that the CIO assign the authority and
     responsibility to one individual to maintain patches on all workstations on ITCNet. 3 
     Recommendation 4: We recommend that the CIO implement processes to manage
     the patching of software approved by waiver. ............................................................ 3 
     Recommendation 5: We recommend that the CIO set up a process to remove
     unapproved software from ITCNet. ............................................................................ 3 

   Problem Area 3: There is No System-wide, Automated Process for Patching
   Workstations ................................................................................................................... 4 
     Recommendation 6: We recommend that the CIO implement an automated
     patching process of all workstations on ITCNet. ........................................................ 4 

Management Comments and Our Analysis ............................................... 5 

Objective, Scope, and Methodology ............................................................ 6 

Appendix A: Management Comments on Draft Report 




OIG-AR-09-10                                                       -i-
 
                     U.S. International Trade Commission
                                  Audit Report


                                 Results of Audit
The purpose of this audit was to determine whether the process for patching ITCNet
workstations is materially and effectively reducing the Commission's risk.

The process for patching ITCNet workstations is ineffective and exposes the
Commission’s information and systems to material risk. On April 28, 2010 we reviewed
the patch status of 354 machines on ITCNet and found that:

      All workstations were missing High Severity patchesa High Severity patch is a
       software change designed to prevent intruders from being able to run code of their
       choice on our network or elevating their privileges to take control of ITCNet
       workstations
      28,320 High Severity patches were missing on ITCNet workstations
      An average of 80 High Severity patches were missing per workstation
      236 workstations were missing a High Severity Microsoft Outlook patch that has
       been available since January 10, 2006,
      308 workstations were missing High Severity Java patches
      307 workstations were missing High Severity Adobe Acrobat patches
      253 workstations were missing High Severity Flash Player patches

The patching process for workstations on ITCNet is ineffective because the Office of the
CIO does not measure its patch status; responsibility for patching is unclear; and there is
no automated process to patch all workstations. Each of these three problem areas will be
discussed in detail in the rest of this report.




                   Problem Areas & Recommendations

                                     Problem Area 1:
       The Commission Does Not Measure the Patch Status of Workstations


The Office of the CIO is not monitoring the patch status of ITCNet workstations. This
lack of monitoring is partially responsible for the fact that workstations are not being
patched. Our analysis of 354 workstations determined that High Severity patches were
missing from every machine tested. On average, each system was missing 80 High
severity patches.




OIG-AR-09-10                               -1-
                      U.S. International Trade Commission
                                   Audit Report

Effective management is only possible with consistent measurement. Because the Office
of the CIO is not measuring the patch status of workstations, it is not managing the
workstation patching process.

Not patching workstations on our network exposes more than just a single computer to
risk, rather it exposes all data and systems on ITCNet to risk. For example, the
administration of applications such as EDIS, HTS, and DataWeb require that staff use
elevated credentials. Administration of these applications takes place on user
workstations. When a workstation is compromised, the attacker gains control of that
workstation and receives access to the elevated credentials in use on that workstation.
All that is required for complete compromise of any application being used at USITC is
for an attacker to exploit only one of the average 80 missing High Severity patches on
any workstation in use by an application administrator. This weak link effectively
circumvents the other security applied to the network perimeter or the application itself.

Senior management in the Commission’s business units are not aware of the risks to the
confidentiality, integrity, and availability of data on their information systems because
they are not regularly informed of the status of workstation security.

Recommendation 1:

We recommend that the CIO deploy a tool to measure the patch status of workstations on
ITCNet.

Recommendation 2:

We recommend that the CIO report monthly on patch status of workstations to all senior
management in the Commission.



                                     Problem Area 2:
              The Responsibility for Patching Workstations is Unclear


Our review of the workstations on ITCNet found that the Commission was missing a total
of 28,320 High Severity patches on its workstations. Every workstation we tested was
found to be missing Microsoft patches.

Third party software such as Java, Acrobat, and Flash Player are installed on every
workstation. If this software is not patched, it creates another attack vector. We did not
find any evidence that this third party software is being consistently patched. We
identified 308 workstations missing High Severity Java patches, 307 missing High
Severity Adobe Acrobat patches, and 253 missing High Severity Flash Player patches.



OIG-AR-09-10                               -2-
                     U.S. International Trade Commission
                                  Audit Report

During our interviews with OCIO staff, we learned that the Office of the CIO expects
Commission staff to patch applications outside the scope of the CIO software baseline.

In interviews with non-OCIO users that had third party software installed on their
workstations, we asked “Who patches your software?” We received the following types
of responses:
     “What’s patching?”
     “I don’t patch it.”
     “Sometimes, it pops up a message about downloading a newer version, and I
        always click ‘No’.”
     “Doesn’t the CIO take care of all patching?”

Commission users are unaware that the OCIO doesn’t patch all of their software. While
users should be aware of the inherent risks of Internet browsing and email attachments,
expecting every user to implement technical mitigations creates a significant risk to all
ITCNet users.

We also noted that unauthorized software was running on ITCNet, and was not being
patched. For example, Apple iTunes was running on 19 workstations and High Severity
iTunes patches were missing from all 19 of these workstations.

In order to effectively manage the patching process, a single individual should have the
authority and responsibility to patch ITCNet workstations.

The effects of the unclear roles (between the OCIO and users) are that workstations are
not patched and that the Commission information systems are vulnerable, and operate
under a high level of risk.

Recommendation 3:

We recommend that the CIO assign the authority and responsibility to one individual to
maintain patches on all workstations on ITCNet.

Recommendation 4:

We recommend that the CIO implement processes to manage the patching of software
approved by waiver.

Recommendation 5:

We recommend that the CIO set up a process to remove unapproved software from
ITCNet.




OIG-AR-09-10                               -3-
                     U.S. International Trade Commission
                                  Audit Report


                                    Problem Area 3:
     There is No System-wide, Automated Process for Patching Workstations


Our review of the patch status on workstations identified many instances of common
standard applications that have remained unpatched for years. For example, we found
that a High Severity patch released January 10, 2006 for Microsoft Outlook (MS-06-003)
was missing from 236 workstations. This software is part of the OCIO software baseline,
and by policy, should be patched by the OCIO.

High Severity patches for all software should be applied agency-wide within 3 days of
release by their manufacturer. High Severity patches should be installed for most
systems on the same day a patch is released, because exploits are generated quickly from
the information provided as part of the patch. Any delay beyond the release date of a
patch increases the risk exposure. For this reason, Microsoft preconfigures Windows
operating systems to download and install patches every night.

We identified one system missing 297 High Severity patches.

Commission staff should be protected from malicious content encountered while
browsing the Internet or received via email. Unpatched workstations are missing these
basic protections, and greatly increase the risk of system compromise.

The Commission’s current patching method demands significant resources because it is
not fully automated. Because it does not immediately apply all necessary High Severity
patches, the Commission is operating under a high level of risk. As a result, the
Commission does not have the most basic defenses to secure its workstations and its
network. The current patching process does not effectively protect Commission
information or systems.

Recommendation 6:

We recommend that the CIO implement an automated patching process of all
workstations on ITCNet.




OIG-AR-09-10                              -4-
                      U.S. International Trade Commission
                                   Audit Report


               Management Comments and Our Analysis

On June 16, 2010, Chairman Shara L. Aranoff provided management comments to the
draft audit report. The Chairman concurred with our assessment, and acknowledged that
the three problem areas highlighted present significant material risks.

Based on the information obtained during the course of this audit, the Commission
undertook immediate action to reduce its vulnerabilities through the replacement of most
workstations with a new, fully patched workstation.

In her comments, the Chairman reports that as of June 16, 2010, the aggregate number of
missing High Severity patches had decreased by 91.7%, from 28,320 to 2,333, and that
the number of systems fully patched had increased from 0 to 197 workstations.

We have continued to monitor the patch status since the original assessment, and our data
confirms a significant decrease in the number of missing patches and an increase in the
number of fully patched workstations. As of June 16, 2010, the average number of
missing High Severity patches per workstation has decreased from 80 to 7, as seen in
Chart 1. When our testing began, no workstations were fully patched; Chart 2 details the
increase of fully patched workstations to 61%.

                     Chart 1: Average Missing High Severity Patches.

                     Average Missing High Severity Patches

         90 
               80 
         80 
         70 
         60                     54 
         50 
         40 
                                                                34 
         30 
         20 
                                                                       11       7 
         10 
         ‐




OIG-AR-09-10                              -5-
                      U.S. International Trade Commission
                                   Audit Report

                    Chart 2: Percentage of Workstations Fully Patched:

                    Percentage of Workstations Fully Patched


        70%
                                                                         58%      61%
        60%

        50%

        40%

        30%
                                                                  22%
        20%

        10%
               0%              0%
         0%




                    Objective, Scope, and Methodology
Objective
The objective of the audit was to answer the question, “Is the process for patching
ITCNet workstations materially and effectively reducing the Commission’s risk?”

Scope
The original scope of this audit was intended to provide a comprehensive view of ITCNet
to include all nodes, including servers, security and network infrastructure, and all other
addressable devices. After discussions with the OCIO we reduced the scope to focus
only on workstations.

This audit covered all workstations on ITCNet and all software on these workstations,
including operating systems and both major and minor applications. In addition, it
evaluated the recommended patch status of the software installed on each machine.

On April 28, 2010, we assessed the patch status of all workstations residing in the
standard ITCNet workstation network range.




OIG-AR-09-10                               -6-
                     U.S. International Trade Commission
                                  Audit Report


Methodology
A combination of automated tools, manual validity checks, and interviews with USITC
staff were used to gather and analyze information in order to determine the state of the
Commission’s patching process.

a. To analyze the patch status of the workstations on ITCNet, we first identified which
   networks on ITCNet hosted workstations. To perform this task, we queried CIO staff,
   and performed passive network and device discovery using Wireshark.
b. To assess the patch status, we used Nessus, which we connected to each workstation
   with credentials that permitted read access to the areas required to make the
   assessment, administrative shares and the Windows Registry. While Nessus has the
   ability to report on a wide range and severity of vulnerabilities, we reported only on
   High Severity vulnerabilities, which can be used maliciously by intruders to run code
   of their choice on our network or to elevate privileges to take control of our
   workstations.
c. To limit the risk inherent in scanning tools, we first scanned workstations and non-
   workstations (printers) in the Office of Inspector General. After we validated the
   results with manual checks, we scanned about ten percent of the workstations on
   ITCNet. We validated those results and then on April 28, 2010 we scanned all known
   ITCNet network ranges.
d. We confirmed the results generated by Nessus through manual, independent
   verification of affected file versions on user workstations.
e. After analyzing the results, we conducted interviews with OCIO staff to gather
   information on the potential causes.
f. We evaluated the current patching process, specifically focusing on installation
   procedures and patch-level assessment performed by the Office of the CIO.
g. We interviewed non-CIO staff to gather knowledge of their understanding and
   responsibility in the patching process.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-09-10                               -7-
 
               U.S. International Trade Commission
                            Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-09-10
               U.S. International Trade Commission
                            Appendix A




OIG-AR-09-10
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
